HHS/OIG, Audit - "Review of Subaward Costs Claimed Under
University Of Massachusetts Medical School Prime NIH Grant Number 5 P01
HL56920-05 From February 1, 2001, Through August 31, 2002," (A-01-06-01501)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Subaward Costs
Claimed Under University Of Massachusetts Medical School Prime NIH Grant Number
5 P01 HL56920-05 From February 1, 2001, Through August 31, 2002," (A-01-06-01501)
August 7, 2006
Complete Text of Report is available in PDF format (491 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the University of Massachusetts Medical School (UMMS) claimed allowable subrecipient costs for Yale University and Roger Williams Hospital in compliance with applicable Federal requirements. UMMS overstated its claim by $249,525, or about 33 percent of the total that it claimed for subrecipient costs. UMMS submitted overstated costs because the subrecipients did not follow established procedures or did not have adequate procedures for claiming costs and UMMS did not have adequate written procedures for monitoring subrecipients. We recommended that UMMS make a financial adjustment to NIH totaling $249,525 for costs that the subrecipients overstated and establish detailed written subrecipient monitoring procedures to ensure that subrecipients claim costs in compliance with applicable Federal requirements. UMMS agreed with our recommendations and said that it was taking appropriate corrective action.